                                                       IG-02-020




AUDIT
                             SPACE SHUTTLE SAFETY UPGRADES
REPORT
                                       July 01, 2002




                           OFFICE OF INSPECTOR GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

       Assistant Inspector General for Audits
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form or write to the
NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026.
The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

AHMS           Advanced Health Management System
APU            Auxiliary Power Unit
CAU            Cockpit Avionics Upgrade
FY             Fiscal Year
GAO            General Accounting Office
NSTS           National Space Transportation System
OIG            Office of Inspector General
OMB            Office of Management and Budget
SSME           Space Shuttle Main Engine
SSP            Space Shuttle Program
W


TO:            HQ/M/Associate Administrator for Space Flight
               HQ/M/Deputy Associate Administrator for International Space Station
                     and Space Shuttle
               JSC/AA/Director, Lyndon B. Johnson Space Center

FROM:          HQ/W/Assistant Inspector General for Audits

SUBJECT:       Final Report on Space Shuttle Safety Upgrades
               Assignment Number A-01-041-00
               Report Number IG-02-020

The subject final report is provided for your use. Please refer to the Results in Brief for the
overall audit results. We have included your comments in their entirety in Appendix E.

We appreciate the courtesies extended to the audit staff. If you have questions concerning the
report, please contact Dennis E. Coldren, Program Director, Space Flight Audits, at
(281) 483-4773, or Esther A. Judd, Program Manager, at (301) 286-3359. The final report
distribution is in Appendix F.




[Original Signed By]

Alan J. Lamoreaux

Enclosure
                                                    2

cc:
HQ/AI/Associate Deputy Administrator
HQ/B/Deputy Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/JM/Director, Management Assessment Division
JSC/MA/Manager, Space Shuttle Program Development
                                 NASA Office of Inspector General
IG-02-020                                                                                          July 01, 2002
 A-01-041-00

                             Audit of Space Shuttle Safety Upgrades

Introduction
The Space Shuttle is the only U.S. vehicle that can launch humans and payloads into space and
safely return them from an Earth orbit. Since the Space Shuttle Challenger mishap,1 NASA has
improved the safety of the Space Shuttle; the estimated risk of catastrophic failure during launch
decreased from 1 in 78 missions in 1986 to 1 in 556 missions today. The continued safe
operation of the Space Shuttle is a top priority and is essential in NASA’s ability to support the
assembly and operations of the International Space Station.

NASA has made investments in Space Shuttle safety improvements over the last several years
while, at the same time, NASA has reduced the Space Shuttle budget by about a third through
efficiencies and contract consolidation. Having achieved these budget reductions, continued
improvements in Space Shuttle safety will require additional investments.

The NASA Office of Inspector General (OIG) performed an audit of Space Shuttle safety
upgrades. The overall objective was to evaluate NASA's management of Space Shuttle safety
upgrades. Specifically, we determined whether NASA ensured that the approved safety
upgrades2 met established safety objectives, were selected based on a quantitative analysis or
other measurable methodology, were adequately funded to ensure completion of the
modifications when needed, and minimized adverse effects on the Space Shuttle flight schedule.
Appendix A contains further details of our objectives, scope, and methodology.

During the audit, the Office of Management and Budget (OMB) issued “Fiscal Year 2003
Budget of the U.S. Government,” which assessed the Space Shuttle Safety Upgrades Program as
ineffective. The basis of OMB’s assessment was NASA’s large cost overruns3 and schedule
delays in improving the safety of Space Shuttle. Appendix B contains further details on OMB’s
conclusions.




1
  The Space Shuttle Challenger 51-L was the 25th mission in NASA's Space Transportation System program. The
January 28, 1986, Challenger explosion shortly after liftoff resulted in the destruction of the vehicle and death of its
seven crew members.
2
  Approved upgrades are those safety upgrade projects that NASA has approved to proceed from formulation to
implementation.
3
  OMB considered the cost increase from NASA’s estimates provided early in project formulation as the cost
overruns.
Results in Brief
NASA appropriately managed safety upgrades approved for implementation to ensure they met
established safety objectives, were selected using quantitative and qualitative factors, and were
adequately funded for fiscal year (FY) 2002. In addition, we found that NASA ensured that the
integration of the safety upgrades did not adversely affect the Space Shuttle flight schedule.
Although the safety upgrades approved for implementation were adequately funded for FY 2002,
the Congress and Aerospace Safety Advisory Panel (the Panel)4 expressed concerns about the
adequacy of future funding (see report section entitled, Other Matters of Interest).

Background
The Space Shuttle Program (SSP) is an essential element of NASA's integrated space
transportation strategy for the first decade of this century. That strategy includes continued
utilization of the Space Shuttle as the nation's primary launch vehicle for human access to space
well into the second decade of this century and possibly beyond. NASA’s current plans are to
safely operate the Space Shuttle through at least 2012,5 to support the International Space Station
for assembly and logistics missions, to undertake non-International Space Station missions that
require unique Space Shuttle capabilities, and to meet other national goals for reusable launch
vehicles.

In NASA’s FY 2001 budget, the Congress appropriated $256 million to initiate the High-Priority
Safety Upgrades Program. Congress directed the SSP to plan for and make prudent investments
in system safety upgrades to reduce operational risk and to provide a more reliable capability to
support NASA's human space mission objectives. Accordingly, the SSP established its
Development Office to proactively provide a safer and more efficient Space Shuttle system that
will continue to support the Agency’s commitments and goals for human access to space. The
FY 2002 budget for the SSP Development Office safety upgrades is $207 million.




4
  The Aerospace Safety Advisory Panel is a senior advisory committee that reports to NASA and the Congress. The
Panel reviews safety studies and operations plans that are referred to it and reports to the NASA Administrator with
respect to the hazards of proposed operations and to the adequacy of proposed or existing safety standards.
5
  NASA based the current Space Shuttle upgrade strategy on the premise of ensuring the Space Shuttle can fly safely
until 2012. However, on March 25, 2002, the NASA Associate Administrator for Space Flight requested that the
Director, Lyndon B. Johnson Space Center, develop a strategy to identify upgrades and supportability investments
needed to maintain the Space Shuttle fleet capability to fly safely through 2020.

                                                         2
Space Shuttle Safety Upgrade Selection
The safety upgrade candidates6 met at least one of the three safety objectives identified in
National Space Transportation System (NSTS) 37400, “Space Shuttle Program Upgrades
Management Plan,” July 21, 2000. In addition, the suite of proposed safety upgrades7
collectively met the targets established for each safety objective; however, two of the low-cost
safety upgrades could not meet the established targets on an individual basis.

Space Shuttle Program Development Strategy

NASA intends that Space Shuttle upgrades further the primary goals of the SSP. The SSP goals
are to fly safely, meet the Shuttle manifest, improve supportability, and improve the Space
Transportation System to meet the Agency’s commitments and strategies for human operation in
space.

NASA’s upgrade investment strategy considers two types of upgrades: high-priority safety
upgrades (to improve system safety) and supportability upgrades (to mitigate obsolescence
issues). Safety upgrades are those upgrades that minimize ascent, descent, and critical
operations risks. The principal factors used to determine high-priority safety upgrades are the
degree of safety improvement and how quickly the associated benefits can be realized.
Supportability upgrades are primarily those system upgrades required to ensure that reliable
Space Shuttle system hardware is available to the SSP to support the expected Space Shuttle
mission manifest through at least 2012. The schedule for implementing obsolescence-driven
supportability upgrades depends on when they are needed to mitigate a supportability threat.

Space Shuttle Safety Upgrade Objectives

NSTS 37400, “Space Shuttle Program Upgrades Management Plan,” July 21, 2000,8 describes
NASA’s safety upgrade objectives as follows:

    •   major reduction in ascent catastrophic risk (targeting up to a 50-percent risk reduction);

    •   significant reductions in orbital and entry/landing catastrophic risk (targeting up to a
        30-percent risk reduction); and




6
  The safety upgrade candidates that we reviewed included both approved and deferred upgrades: Cockpit Avionics
Upgrade, Electric Auxiliary Power Unit, Space Shuttle Main Engine Advanced Health Management System
Phase I, External Tank Friction Stir Weld, and Main Landing Gear Tire/Wheel. The Electric Auxiliary Power Unit
was deferred in June 2001 because of a lack of technology development. The Space Shuttle Main Engine Advanced
Health Management System Phase II was deferred in September 2001 because of limited funding. Appendix D
contains additional details on these safety upgrades.
7
  The suite of safety upgrades includes upgrades that collectively would reduce Shuttle ascent risk by as much as
50 percent and reduce orbital and entry/landing risk by as much as 30 percent. Because of budget constraints and
technical limitations, NASA deferred some of these upgrades (see Appendix D).
8
  We found that NSTS 37400 reflected upgrades that were no longer being considered due to budget constraints.
Management stated that a draft of the revised management plan was in the review process.

                                                       3
    •   major improvement in flight crew situational awareness for managing critical flight
        operational situations through cockpit modernization.

The SSP Development Office established risk reduction target percentages for each stated safety
upgrade objective. However, the selection of a specific upgrade did not depend solely on
meeting one of the targeted percentages.

We reviewed the safety upgrade objectives and targets and found that NASA appropriately used
the safety objectives to prioritize safety upgrades before considering affordability, technology
readiness, and early implementation potential. Although we also found that two9 of the low-cost
safety upgrades did not significantly contribute to achieving the stated safety objectives, the suite
of upgrades collectively met all the risk reduction targets associated with the safety upgrade
objectives. Appendix D contains additional information on the objectives.

Conclusion

NASA selected the safety upgrades based on the total of the risk reductions for a suite of
upgrades rather than the percentage to be gained from an individual project. NASA acted
appropriately because it needed to consider other programmatic factors such as cost and
schedule.




9
 The two low-cost upgrades were the Main Landing Gear Tire/Wheel (estimate at completion of $11 million) and
External Tank Friction Stir Weld (estimate at completion of $21 million).

                                                      4
Quantitative and Qualitative Analyses
NASA appropriately selected safety upgrades approved for implementation by using quantitative
and qualitative analyses.10 Although the SSP Development Office did not employ a standard
analytical process, it used appropriate methods to evaluate each upgrade.

Space Shuttle Safety Upgrades Prioritization and Selection

The primary goal of the safety upgrade prioritization and selection process is to allocate
resources to significant safety improvement opportunities. NASA based the Space Shuttle safety
upgrades prioritization and selection process on the Space Shuttle operational risk model. This
model establishes the relative risk contribution of each Space Shuttle hardware element to
overall Space Shuttle risk and identifies the high-risk systems and components of each element.
The SSP Development Office established and maintained the resulting comparative risk
contribution baseline as a major tool for prioritizing safety upgrade candidates. However, the
SSP Development Office used many different methods, both qualitative and quantitative, to
ascertain risk and select potential candidates.

In addition to prioritizing upgrades based on safety improvement potential, the SSP
Development Office also screened upgrades for how well they met SSP goals, affordability,
technology readiness, and early implementation potential. For example, as part of prioritizing
upgrades, the SSP Development Office would rank an upgrade proposal with modest risk
reduction potential, but very high cost to implement, lower than a much less expensive proposal
that offered similar risk reduction potential. The SSP Development Office uses the results of
these analyses to develop a prioritized suite of safety upgrade candidates based on their ability to
eliminate or reduce the potential for catastrophic loss.

Alternative Safety Upgrade Selections

Once the SSP Development Office develops the suite of highest priority proposed upgrades, it
determines whether adequate resources exist. Because limited funds are available, the SSP
Development Office prioritizes safety upgrades based not only on benefit and risk, but also on
affordability. The SSP Development Office used the affordability prioritization factor to select
two low-cost safety upgrades that were within the available funding limitations and provided the
greatest safety benefit for the investment. NASA selected the Main Landing Gear Tire/Wheel
and External Tank Friction Stir Weld safety upgrades as part of the suite of approved upgrades.




10
  Quantitative and qualitative analyses include but are not limited to preliminary hazard analyses, failure modes and
effects analyses, system and subsystem hazard analyses, fault tree analyses, human factors analysis/assessments,
peer reviews, and baseline hazard data such as discrepancy reports and in-flight/ground anomalies found in the
Shuttle’s Problem Reporting and Corrective Action database.

                                                          5
Probabilistic Risk Assessments

NASA used a probabilistic risk assessment11 method, specifically the Quantitative Risk
Assessment System,12 to determine the risk reduction percentage for four of the five upgrade
projects we reviewed. In recent years, critics of probabilistic risk assessment tools pointed out
that sole reliance on this system can lead to an unsafe spacecraft because the system:

      •   tends to focus on component/subsystem/system failures,

      •   can result in a goal of improving the risk reduction percentages without improving the
          design,

      •   concentrates on catastrophic hardware failures while not identifying risks associated
          with crew injury/vehicle damage, and

      •   does not account for safety risks associated with the vehicle operational
          design/concept.13

In addition, the results of the probabilistic risk assessment method depend on the quality and
completeness of the underlying engineering model,14 the quality and quantity of the data
introduced, and the competencies of the individual using the system. Therefore, we were
initially concerned about NASA’s use of the Quantitative Risk Assessment System. However,
we reviewed the probabilistic risk assessments and found that the SSP Development Office did
not rely solely on this analytical tool15 to determine risk.

Conclusion

NASA appropriately used quantitative and qualitative analyses to prioritize and select safety
upgrades. For example, the SSP Development Office used quantitative risk analyses to rank
safety risks and to prioritize safety upgrades and considered qualitative factors and judgment in
determining what assumptions, such as risk factors, to use in the Quantitative Risk Assessment
System and how to interpret the results.




11
   Probabilistic risk assessment is a general term given to methodologies that assess risk. Although probabilistic risk
assessment methods are usually quantitative, these methods can be either subjective or quantitative.
12
   The Quantitative Risk Assessment System is a personal computer-based software tool used to perform a
probabilistic risk assessment.
13
   Critics of the probabilistic risk assessment based their explanations on the “Proceedings of the 19th International
Systems Safety Conference – 2001, Risk Probability Numbers and Human-Rated Spacecraft Systems Safety,”
published by the Systems Safety Society.
14
   The engineering model is incomplete and does not contain certain key attributes such as human error, procedural
error, secondary failures/conditions, operationally induced errors, or environmentally induced errors.
15
   The SSP Development Office used other analyses which included preliminary hazard analyses, failure modes and
effects analyses, fault tree analyses, human factors analysis/assessments, peer reviews, and an assortment of
baseline hazard data.

                                                           6
Safety Upgrade Funding
NASA had adequately funded the safety upgrades approved for implementation to ensure
completion of the modifications when needed. For FY 2002, NASA received $207 million for
high-priority safety upgrades--$20 million more than the $187 million the Agency requested.16
The FY 2002 President’s Budget17 contained a program estimate for safety upgrades of about
$1.6 billion.18 However, the FY 2003 President’s Budget reduced the program estimate for
safety upgrades to $1 billion. The decrease of almost $600 million resulted from NASA’s
reduction in and deferral of safety upgrade projects.

Deferral of Electric Auxiliary Power Unit

The SSP Development Office encountered significant technical challenges with the Electric
Auxiliary Power Unit (APU) (see Appendix D for additional information on the Electric APU)
project as the technical formulation phase progressed. Assumptions made for the initial estimate
about the maturity of necessary technology, primarily the power cells, were incorrect, and
significantly more technology development needed to be performed. The cost estimate to
complete the project increased due to the inability to mature the technology, resulting in
significant weight, mass, and cost growth. As a result, the most recent cost proposal was
$667 million--more than three times the original estimate of $182 million. These cost increases
primarily resulted from NASA’s underestimate of the technological risk remaining for
developing the unique batteries required for the Electric APU and from growth in requirements
early in the project formulation phase. In June 2001, NASA deferred the Electric APU as an
upgrade because of technical and budget issues, but continued to pursue it as a technology
development effort. As of December 2001, NASA had spent $70.3 million on the Electric APU
project.

Deferral of Space Shuttle Main Engine Advanced Health Management System Phase II

NASA provided a $55 million preliminary estimate at completion for the Space Shuttle Main
Engine (SSME) Advanced Health Management System (AHMS) Phase II (see Appendix D)
during the budget formulation before the Agency knew either the scope or content of the
program. An official of the NASA Independent Program Assessment Office stated that budget
formulation demands often result in submission of premature estimates. The official explained
that project estimates at completion are often required from project managers during the
formulation phase when technology, schedule, and cost requirements are not yet fully developed,
and there are many unknowns. However, estimates at completion must be provided early in the




16
   The Manager, SSP Development Office is reviewing all projects to determine whether there is a potential for risk
reduction or schedule acceleration if additional funds are allocated. However, the SSP Development Office has not
made any decisions on how to use the additional $20 million.
17
   The President’s FY 2002 budget, “A Blueprint for New Beginnings,” February 28, 2001, outlined the President’s
vision for governing the Nation.
18
   This budget estimate was the total cost estimate from the beginning of the Space Shuttle Safety Upgrades Program
through FY 2006.

                                                         7
formulation stage in order for NASA to secure funding for future years. The latest estimate at
completion for the SSME AHMS Phase II was $179 million.19 However, in September 2001,
NASA deferred the SSME AHMS Phase II because of budget issues.20

NASA’s Response to Cost Growth

NASA has responded to the growth in cost estimates by taking actions to improve cost
management and cost estimating, including increasing its program evaluation capability by
adding staff for the cost estimating function. In addition, the recent award of the Independent
Program Assessment Contract to Booz Allen Hamilton is a step toward improving the Agency’s
independent assessment capability. The contractor will support the Lyndon B. Johnson Space
Center Systems Management Office in providing full programmatic and institutional assessment
capability.

Also, OMB and NASA are developing an agreement on the kinds of information NASA should
provide to OMB for program approval, evaluation, and updates.21 This agreement should result
in a more appropriate measure of cost estimates.

Conclusion

NASA continues to invest in safety upgrades for the Space Shuttle. The SSP Development
Office has received sufficient funds for FY 2002 to continue work on high-priority safety
upgrades that NASA approved for implementation. However, if the probability of catastrophic
failure is to decrease further, NASA will need to increase funding to complete safety upgrade
projects that have been reduced, deferred, or cancelled.




19
   As of December 2001, costs incurred for the SSME AHMS Phase II were $7.5 million.
20
   Partial funding for FY 2002 was provided for the SSME AHMS Phase II to complete the development and
documentation of the detailed technical specifications, to complete hardware preliminary design, and to refine cost
estimates for future consideration. The SSP Development Office’s position is that the SSME AHMS Phase II will
be deferred indefinitely after FY 2002 if an adequate funding source cannot be identified for the implementation
effort.
21
   OMB indicated that this program agreement could be completed by late FY 2002.

                                                         8
Impact on Space Shuttle Flight Schedule
The safety upgrades have not adversely affected the Space Shuttle flight schedule. Also, in the
near future, there should be no adverse effect because of the limited number of upgrades being
performed and the reduced number of planned flights.

Mixed Fleet Study

NASA performed a Mixed Fleet Study in May 2001. NASA defines a mixed fleet as one
configured with multiple combinations of the Cockpit Avionics Upgrade (CAU)22 and the
Electric APU23 (which has been deferred). The purpose of the Mixed Fleet Study was to develop
an option to reduce the time the fleet is flying in a mixed configuration due to incorporation of
major safety and supportability upgrades while maintaining the Space Shuttle flight schedule.
The purpose of reducing the mixed fleet operating time was to provide overall cost savings due
to reduced multiple configuration support requirements, reduce the strain associated with limited
resources working multiple configurations, minimize the need for maintaining and operating
multiple manuals and processes, reduce the window of vulnerability/risk of errors with multiple
processes and procedures, and reduce training requirements for operations and support. When
the Electric APU was deferred in June 2001, the May 2001 Mixed Fleet Study became obsolete.
The SSP Office will make integration decisions with respect to the CAU in late summer 2002,
when it expects to complete a new Mixed Fleet Study.

Impacts on Flight Rates

While the President’s budget for FY 2002 proposed an increase in NASA’s overall budget, it
recommended that Space Shuttle flight rates be reduced from seven to six a year. However, the
President’s budget for FY 2003 directs that NASA contain rising Space Shuttle costs, which are
due primarily to personnel costs, aging infrastructure, and growing vehicle obsolescence. The
FY 2003 budget also supports a recommendation made by the International Space Station
Management and Cost Evaluation Task Force that NASA further reduce the Space Shuttle flight
rate to five a year in FY’s 2003 and 2004 and to four a year in FY’s 2005 and 2006.

Conclusion

NASA used the Mixed Fleet Study to ensure that approved Space Shuttle safety upgrades
minimized adverse effects on the Space Shuttle flight schedule. However, due to budget
restrictions and technical problems, only one major safety upgrade (the CAU) that affects the




22
   NASA’s Program Management Council granted the CAU authority to proceed through the preliminary design
review, which was held in April 2002. As a result of that review, the Program Management Council must decide by
late summer 2002 whether to grant further authority to proceed.
23
   The SSME AHMS Phase I is a major safety upgrade, but because it does not affect modifications to the Orbiter,
NASA did not consider the upgrade in the Mixed Fleet Study.

                                                       9
Mixed Fleet Study is being performed. NASA will not make decisions regarding the integration
of the CAU safety upgrade until summer 2002. This decision will be supported by a preliminary
design review and a new Mixed Fleet Study in order for NASA to determine the best time to
integrate the upgrade.




                                             10
Other Matters of Interest
Although we found that the Space Shuttle safety upgrades approved for implementation were
adequately funded for FY 2002, the Congress and the Aerospace Safety Advisory Panel (the
Panel) expressed concerns about deferred and future safety upgrades. The Panel reported that
because of the budget shortfall, safety upgrades will not be adequately funded, and NASA’s
plans to replace the Space Shuttle will not be accomplished in the near future.

On April 18, 2002, the House Subcommittee on Space and Aeronautics held a hearing on the
Space Shuttle and Space Launch Initiative Programs. The hearing examined NASA’s plans to
operate and maintain the Space Shuttle and NASA’s strategy for developing a second-generation
reusable launch vehicle to replace the Space Shuttle.

During the hearing, the former Panel Chairman testified that during his involvement with the
Panel, he had never been as concerned for Space Shuttle safety as he currently was. The Panel
reported in its “Annual Report for 2001” that current plans and budgets for the Space Shuttle
were not adequate and that while safety continues to be well served presently, the basis for future
safety has eroded. In addition, the former Chairman stated that nobody would know for sure
when the safety margin had been eroded too far and that the current approach was planting the
seeds for future danger. Appendix C contains additional details on the Panel’s “Annual Report
for 2001.”

Despite the Panel’s concerns, NASA’s Associate Administrator for Space Flight assured
Congress that sufficient funds were available to maintain the current levels of safety for the
Space Shuttle. In addition, the Associate Administrator indicated that for the Space Shuttle to
successfully continue accomplishing its goals, the SSP Office must implement upgrades that will
increase flight safety and improve systems reliability. NASA has established a goal to have its
currently approved safety upgrades implemented into the fleet by 2007. As a contingency, the
Associate Administrator also asked the SSP Office to assess upgrade investments required to
safely fly the Space Shuttle through FY 2020.




                                                11
                 Appendix A. Objectives, Scope, and Methodology
Objectives

The overall objective was to evaluate NASA's management of Space Shuttle safety upgrades.
Specifically, we determined whether NASA ensured that the approved safety upgrades: met
established safety objectives, were selected based on quantitative analysis or other measurable
methodology, were adequately funded to ensure completion of the modifications when needed,
and minimized adverse impacts to the Space Shuttle flight schedule.

Scope and Methodology

We reviewed prior audits by NASA’s Office of Inspector General, the General Accounting
Office, and the National Research Council, applicable Federal laws and regulations, NASA
budget and historical data, procedures and guidelines, management plans and independent
assessments/reviews. We discussed the audit scope with program management officials at the
Lyndon B. Johnson Space Center. We did not assess the reliability of computer-processed data,
because we did not rely on it to achieve our objectives.

Management Controls Reviewed

We reviewed the processes the Space Shuttle Program Development Office used to determine
the prioritization and selection of the Space Shuttle safety upgrades. Additionally, we examined
the process and the independent cost estimates that were prepared on the selected safety upgrade
projects. We considered the controls in place to be adequate.

Audit Field Work

We performed the audit field work from June 2001 through May 2002 at the Lyndon B. Johnson
Space Center. We performed the audit in accordance with generally accepted government
auditing standards.

Summary of Prior Audits and Reviews

The Aerospace Safety Advisory Panel, the General Accounting Office, and the National
Research Council have issued several reports and testimony on Space Shuttle safety upgrades,
which are summarized in Appendix C.




                                               12
                Appendix B. NASA Fiscal Year 2003 Budget Status Report
                             on Shuttle Safety Upgrades
The Office of Management and Budget (OMB) reviews programs throughout the Federal
Government to identify strong and weak performers. The budget seeks to redirect funds where
appropriate from lesser-performing programs to higher priority or more effective programs.
Particularly, when low-performing programs are in priority areas, deficiencies will be addressed
through reforms to improve performance. OMB rated the Space Shuttle Safety Upgrade
Program ineffective and explained that the Program needed to address large cost overruns24 and
schedule delays to improve Space Shuttle safety through effective investments.

OMB’s Overall Performance Rating. OMB’s review concluded that NASA continues to
invest in improving Space Shuttle safety, but some of the planned investments are experiencing
significant problems (as depicted below). For example, the Electric Auxiliary Power Unit was
the highest priority safety upgrade last year (fiscal year 2001), but delays, technical difficulties,
decreasing safety benefits, and a tripling of its projected cost led NASA, with the support of its
advisory committee, to cancel the project.




While the safety and schedule record of Space Shuttle operations has been very good and costs
had come down considerably in the last decade, the Space Shuttle remains a very expensive
vehicle to operate. In the last few years, Space Shuttle costs have begun to rise again, due to
personnel costs, aging infrastructure, growing vehicle obsolescence, and a shrinking industrial
base.



24
     See Footnote No. 3.

                                                  13
Appendix B

Improving Safety. OMB stated that NASA continues to invest in safety improvements for the
Space Shuttle and increases investment in repairing aging Space Shuttle infrastructure. Planned
safety upgrades will enhance safety during launch by 12 percent and will decrease the estimated
risk of catastrophic failure during launch from 1 in 556 missions to 1 in 620 missions. Delays in
the planned implementation of these upgrades continue to be a concern, so funding will be set
aside specifically to accelerate the availability of planned upgrades.




                                               14
                   Appendix C. Prior Audit Reports and Reviews
Aerospace Safety Advisory Panel

“Annual Report for 2001,” March 2002. The Annual Report of the Aerospace Safety
Advisory Panel (the Panel) presents results of activities during calendar year 2001. The Panel
reported that budget cutbacks and shifts in priorities had severely limited the resources available
to the Space Shuttle for application to risk-reduction and life-extension efforts. As a result,
funds originally intended for long-term, safety-related activities have been used for operations.
Thus, while safety continues to be well served at present, the basis for future safety has eroded.
The Panel focused on the dichotomy between future Space Shuttle risk and the required level of
planning and investment to control that risk. The report states that current plans and budgets
were not adequate. The report also states it was not prudent to delay ready-to-install safety
upgrades, thus continuing to operate at a higher risk level than is necessary. When risk reduction
efforts, such as the advanced health monitoring for the Space Shuttle Main Engine, are deferred,
astronauts are exposed to higher levels of flight risk for more years than necessary. These lost
opportunities are not offset by any real life-cycle cost savings. The stock of some existing Space
Shuttle components is not sufficient to support the program until a replacement vehicle becomes
available. Some of the upgrades, in addition to improving safety, solve this shortfall by
providing additional assets. If these upgrades are not going to be implemented, the program
must plan now for adequate quantities of long lead-time components to sustain safe operations.
Regarding specific safety upgrades, the Panel reported that it was unfortunate that the Space
Shuttle Main Engine Advanced Health Management System Phase II had been deferred and that
the Electric Auxiliary Power Unit would be assessed as a potential safety upgrade by the Space
Shuttle Program after the related technology had further matured.


General Accounting Office Reports and Testimony

“Space Shuttle Safety Update on NASA’s Progress in Revitalizing the Shuttle Workforce
and Making Safety Upgrades,” GAO-01-1122T, Testimony, September 6, 2001. In
August 2000, the NASA Space Shuttle Program was at a critical juncture. Its workforce had
declined significantly since 1995, its flight rate was to double to support the assembly of the
International Space Station, and costly safety upgrades were planned to enhance the Space
Shuttle's operation until at least 2012. Workforce reductions were jeopardizing NASA's ability
to safely support the Space Shuttle's planned flight rate. Recognizing the need to revitalize the
Space Shuttle's workforce, NASA ended its downsizing plans for the Space Shuttle Program and
began to develop and equip the Space Shuttle fleet with various safety and supportability
upgrades. NASA is making progress in revitalizing the Space Shuttle Program's workforce.
NASA's fiscal year (FY) 2001 budget request projected an increase of more than 200 full-time
equivalent staff through FY 2002. NASA has also focused more attention on human capital
management in its annual performance plan. However, considerable challenges still lie ahead.
Because many of the additional staff are new hires, they will need considerable training and will
need to be integrated into the Space Shuttle Program. Also, NASA still needs to fully staff areas




                                                15
Appendix C

critical to Space Shuttle safety; deal with critical losses due to retirements in the coming years;
and, most of all, sustain management attention to human capital reforms. Although NASA is
making strides in revitalizing its workforce, its ability to implement safety upgrades in a timely
manner is uncertain.

“Space Shuttle: Human Capital and Safety Upgrade Challenges Require Continued
Attention,” GAO/NSIAD/GGD-00-186, August 15, 2000. In response to a congressional
request, The General Accounting Office (GAO) reviewed the workforce and safety issues facing
NASA and its Space Shuttle Program, focusing on the: (1) impact of workforce reductions on
the Space Shuttle Program; (2) challenges NASA faces in addressing workforce issues; and
(3) status of planned Space Shuttle safety and supportability upgrades. Among other matters,
GAO noted that in regard to safety issues, over the next 5 years, NASA plans to develop and
begin equipping the Space Shuttle fleet with a variety of safety and supportability upgrades at an
estimated cost of about $2.2 billion. Further, to implement the program successfully, NASA will
have to overcome a number of programmatic and technical challenges, such as a demanding
schedule and undefined design and workforce requirements.

“Space Shuttle: Upgrade Activities and Carryover Balances,” Testimony, GAO/T-NSIAD-
98-21, October 1, 1997. In response to a congressional request, GAO discussed the NASA
Space Shuttle Program, focusing on: (1) the effect of a funding transfer from the Space Shuttle
Program to the International Space Station Program on major Space Shuttle upgrade projects and
the status of those projects, (2) the role carryover budget balances had in the transfer and in
funding upgrades, and (3) funding for future upgrades. Concerning Space Shuttle upgrades,
GAO noted that the $190 million funding transfer to the International Space Station Program did
not adversely impact current or near-term upgrade projects; four current projects, which account
for about 91 percent of the total funding provided for upgrade activities in FY 1997, could not
have used the transfer funds; and even though they experienced technical problems and
associated schedule slips, the projects' financial reserves were sufficient to fund the problems
that were experienced. Furthermore, GAO reported that NASA has used carryover budget
balances to fund upgrades in the past and plans to continue doing so in the future; that depending
on the future upgrades selected, costs could range from hundreds of millions to several billions
of dollars; and that NASA is defining an upgrade program to keep the Space Shuttle a viable
space transportation system at least through about 2013 -- the planned mission life of the
International Space Station. Finally, in addition to annual funding requests for safety and
performance upgrades and the continued use of excess carryover budget balances, NASA plans
to use any savings that are generated within the Space Shuttle Program to fund its upgrade
activities; the extent to which these sources will be available in the future is uncertain; and
funding needs for future upgrades will be driven by a number of questions related to issues such
as how long the Space Shuttle will be required and whether viable alternatives can be developed
to support space station operations and other human space flight requirements.




                                                 16
                                                                                   Appendix C

National Research Council

“Upgrading the Space Shuttle,” Committee on Space Shuttle Upgrades, Aeronautics and
Space Engineering Board, Commission on Engineering and Technical Systems, 1999. In
May 1998, NASA asked the National Research Council (the Council) to examine the Agency's
plans for further upgrades to the Space Shuttle system. The Council was asked to assess NASA's
method for evaluating and selecting upgrades and to conduct a top-level technical assessment of
proposed upgrades. NASA did not ask the Council to—and the Council’s report does not—
discuss the larger issue of whether the Space Shuttle should be upgraded. The report was limited
to a review of NASA's approach to prioritizing and selecting upgrades and a top-level technical
assessment of several representative proposed upgrades. The decision to implement many of the
major proposed Space Shuttle upgrades must await a high-level national policy decision on when
the Space Shuttle should be phased out in favor of some other launch vehicle (or vehicles). The
report emphasized that although it may be tempting to delay making this decision until it
becomes clear when a Space Shuttle replacement will be available, a timely decision is crucial
for NASA to act efficiently either by phasing out its Space Shuttle upgrade program or by
making the major investments necessary for the Space Shuttle to carry out its long-term mission
reliably and efficiently.




                                               17
                Appendix D. Space Shuttle Safety Upgrades Objectives
National Space Transportation System (NSTS) 37400, “Space Shuttle Program Upgrades
Management Plan,” July 21, 2000, identifies the following safety upgrades objectives:

     •   major reduction in ascent catastrophic risk (targeting up to a 50-percent risk reduction);

     •   significant reductions in orbital and entry/landing catastrophic risk (targeting up to a
         30-percent risk reduction); and

     •   major improvement in flight crew situational awareness for managing critical flight
         operational situations through cockpit modernization.

NASA derived the targets associated with the first two objectives by adding the individual risk
reduction for each of the candidate upgrades that the Agency selected. However, because of
budget constraints and technical limitations,25 only two major upgrades are being pursued, the
Cockpit Avionics Upgrade (CAU) (Figure D-1) and the Space Shuttle Main Engine (SSME)
Advanced Health Management System (AHMS) Phase I. While two less costly safety upgrades,
the External Tank Friction Stir Weld and Main Landing Gear Tire/Wheel, could not individually
meet the safety objectives, the suite of proposed safety upgrades collectively met the established
safety objectives. NASA has built the consideration of the safety objectives into the selection
process.

                            Figure D-1. Cockpit Avionics Upgrade




                        Source: NASA



The CAU is a high-priority Space Shuttle safety upgrade. The project will provide new Orbiter
cockpit avionics hardware and software to meet the man-machine interface requirements that
will enhance overall crew safety. Orbiter cockpit displays and crew interface capabilities will be




25
 The Electric APU was deferred in June 2001. It is now identified as a technology development effort with about
$4 million in funding for fiscal year 2002.

                                                       18
                                                                                                      Appendix D

significantly improved by replacing the existing integrated display processors with higher
performance command and display processors. These units will provide expanded processing
performance to enable dramatic improvements in information access and display capability as
well as the implementation of new abort flight management and enhanced caution and warning
software functions.

The CAU will increase crew situational awareness and decrease crew workload in the cockpit to
enable more timely and accurate crew decisions. Excessive crew workload adversely affects the
crew’s situational awareness and impairs crew ability to diagnose and isolate system failures.
Improving the crew’s ability to manage information during critical flight operations will
significantly benefit the safety and reliability of the Space Shuttle Program. The CAU is
designed to significantly improve crew performance margins in safety-critical, high-workload
scenarios and to mitigate risk of crew error throughout all critical flight operational phases (the
third safety upgrade objective).

The SSME AHMS Phase I (Figure D-2) upgrade includes the contracted design, development,
modification, certification, and delivery of 20 flight-advanced SSME controllers to include a
high-pressure turbopump synchronous vibration redline capability,26 new external
communications interface, enhanced memory, and deletion of memory retention batteries.


                     Figure D-2. Advanced Health Management System

                    Phase I                                                       Phase II




      SSME Block II
        Controller
        UPGRADE
                                                                  Health
                                                                Management
           Source: NASA
                                                                 Computer



26
 The high-pressure turbopumps are the largest contributors to catastrophic ascent risk. The vibration redlines
protect against bearing, impeller, and turbine blade failures within the SSME controller. The addition of a reliable
catastrophic redline shutdown limit will result in a substantial reduction in both SSME and vehicle ascent risk.

                                                         19
Appendix D

The SSME AHMS Phase II upgrade will improve Space Shuttle safety by reducing the
probability of catastrophic engine failures during the ascent phase of a Space Shuttle mission.
This will be accomplished by the addition of new engine health management hardware and
software, which will provide the capability to detect, diagnose and mitigate the effects of
potentially catastrophic failures. The addition of the SSME AHMS Phase II capabilities will
provide substantial reductions in catastrophic ascent risk above and beyond that achieved by
Phase I. Additionally, Phase II will reduce the likelihood of having to abort the mission or, if an
abort is required, will increase the probability that the abort will be less risky. However, in
September 2001, because of limited funding, the SSME AHMS Phase II is in a deferred status
until NASA increases the funding or makes a decision to formally cancel the project. The SSME
AHMS is designed to reduce ascent risk by about 19 percent and reduce mission risk by about
9 percent (first safety upgrade objective).

The Electric Auxiliary Power Unit (APU) (Figure D-3) system was designed to replace the
Orbiter’s existing Hydrazine APU27 with a battery. The Electric APU consists of a battery,
associated 270-volt power, distribution and control, electro-hydraulic drive unit, and cooling
system. All existing functional performance requirements of the existing Hydrazine APU will be
met with the Electric APU, but without the highly toxic hydrazine fuel and high-speed turbo
machinery and associated hazards. The Electric APU is designed to reduce mission risk by
15 percent and ascent risk by less than 1 percent (second safety upgrade objective). In June
2001, NASA deferred the Electric APU because of technical and budget issues.

                          Figure D-3. Electric Auxiliary Power Unit




                        Source: NASA
                                                REPLACE HYDRAZINE POWERED AUXILIARY POWER
                                                UNIT’S WITH ELECTRIC AUXILIARY POWER UNIT’S



27
  The Hydrazine APU is a highly toxic, explosive, flammable and corrosive system that utilizes a high-speed turbine
to drive a pump shaft and pressurize the Orbiter hydraulic system.

                                                        20
                                                                                        Appendix D

Friction Stir Weld (Figure D-4) is a solid-state welding process utilizing a nonconsumable
cylindrical tool, with a unique auger-type pin, which is rotated, plunged, and traversed along the
weld joint using conventional milling equipment and backside support. Material around the tool
is frictionally heated, plasticized, and extruded/forged to the back of the pin, where the material
consolidates and cools under hydrostatic pressure conditions. The resulting wrought
microstructure exhibits high strength and ductility. The Friction Stir Weld is designed to
improve manufacturing reliability and was approved largely based on the potential to reduce the
manufacturing defects in each external tank from about 100 per tank, which are experienced
today, to none. This project is identified to reduce ascent risk by less than 1 percent (first safety
upgrade objective).

                          Figure D-4. Friction Stir Weld
                                      (FSW)

                                                             Welding
                              Machine                        Direction
                              Spindle

                                                            Tool Holder



                    Plasticized Metal                       FSW Tool


                      Hot Worked
                                                             Base Metal
                        Metal




                    Source: NASA




                                                 21
Appendix D

The Main Landing Gear Tire/Wheel (Figure D-5) project will replace the existing Orbiter tire
and wheel with an improved tire/wheel design that will add a safety margin for landing
operations by increasing load capability with only minor changes to flight operations and ground
processing. NASA approved the project based on expected improvements of gaining about a
20-percent margin in the tire load capability at touchdown, thereby reducing the risk of a tire
blow-out on landing and potentially losing control during landing and roll out. This project is
designed to reduce mission risk by less than 1 percent (second safety upgrade objective).



                     Figure D-5. Main Landing Gear Tire/Wheel

                                           TREAD / GROOVE
                                                                 SIDE WALL

                     UNDER TREAD




                                                     LINER

                                       STEEL
                                                              CARCASS PLY
                                         BEADS
                                                               TURN-UPS
                                                  CHAFER
                                                     STRIPS
                           16 BIAS PLIES
                           TIRE CARCASS


                   Source: NASA




                                                   22
Appendix E. Management’s Response




               23
                          Appendix F. Report Distribution

National Aeronautics and Space Administration Headquarters

HQ/A/Administrator
HQ/AI/Associate Deputy Administrator
HQ/AA/Chief of Staff
HQ/AB/Associate Deputy Administrator for Institutions
HQ/B/Deputy Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/H/Assistant Administrator for Procurement
HQ/HK/Director, Contract Management Division
HQ/HS/Director, Program Operations Division
HQ/J/Assistant Administrator for Management Systems
HQ/JM/Director, Management Assessment Division
HQ/L/Assistant Administrator for Legislative Affairs
HQ/M/Associate Administrator for Space Flight

NASA Advisory Officials

HQ/I/Chair, NASA Advisory Council
HQ/Q-1/Chair, NASA Aerospace Safety Advisory Panel

NASA Centers

JSC/AA/Director, Lyndon B. Johnson Space Center
JSC/MA/Manager, Space Shuttle Program Development
KSC/CC/Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and Space




                                            24
                                                                        Appendix F

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             25
                NASA Assistant Inspector General For Auditing
                               Reader Survey
The NASA OIG has a continuing interest in improving the usefulness of our reports. We wish to
make our reports responsive to our customers’ interests, consistent with our statutory
responsibility. Could you help us by completing our reader survey? For your convenience, the
questionnaire can be completed electronically through our homepage at
www.hq.nasa.gov/office/oig/hq/customer.html or can be mailed to the Assistant Inspector
General for Auditing; Code W, NASA Headquarters, Washington, DC 20546-0001.

Report Title: Space Shuttle Safety Upgrades

Report Number:                                     Report Date:


Circle the appropriate rating for the following statements.

                                            Strongly                                 Strongly
                Statement                    Agree     Agree    Neutral   Disagree   Disagree   N/A
1. The report was clear, readable, and         5          4       3          2          1       N/A
   logically organized.
2. The report was concise and to the           5          4       3          2          1       N/A
   point.
3. We effectively communicated the
   audit objectives, scope, and                5          4       3          2          1       N/A
   methodology.
4. The report contained sufficient
   information to support the findings in      5          4       3          2          1       N/A
   a balanced and objective manner.
Overall, how would you rate the report?

#   Excellent      #    Fair   # Very Good             # Poor         # Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 #    Media
   #   NASA Employee                       #    Public Interest
   #   Private Citizen                     #    Other:
   #   Government:            Federal:             State:         Local:


May we contact you about your comments?


Yes: ______                                 No: ______

Name: ___________________________

Telephone: _______________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Dennis E. Coldren, Program Director, Space Flight Audits

Esther A. Judd, Audit Program Manager

Sandra A. Massey, Audit Program Manager

Bret J. Skalsky, Auditor-in-Charge

Loretta M. Garza, Auditor

Ronald M. Yarbrough, Inspections and Assessments, Safety Engineer

June C. Glisan, Program Assistant

Nancy C. Cipolla, Report Process Manager
